Jm

PROVIPFO TO MARION C.!.
0KI

|^| <^-2 |

FOR MAILING,
Cj>

vy /? A

No.

G 4k k>; 4k

IN THE
SUPREME COURT OF THE UNITED STATES

n
i

LIONEL ROBINSON - PETITIONER

!
i'/

1,

vs.

.

i

<

!

■

U UL'Tj

v.

SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS; and
ATTORNEY GENERAL, STATE OF FLORIDA - RESPONDENTS

On Petition for Writ of Certiorari to
The United States Court of Appeals for the 11th Circuit

...PILED
JAN 1 5 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

PETITION FOR WRIT OF CERTIORARI

Submitted by:
Lionel Robinson, Pro Se
D/C #G15804
Marion Correctional Institution
P.O. Box 158
Lowell, FL 32663-0158
Tel. No. : None Available

RECEIVED
FEB 1 6 2021

©FFICE OF THE CLERK
SUPREME COURT, U.S.

V' ^

ft

QUESTION PRESENTED

1. Does gross negligence on the part of postconviction counsel in the filing of timely
postconviction motions constitute reasons warranting application of equitable tolling for
filing a Petition for Writ of Federal Habeas Corpus?
While the Petitioner and this Court have recognized that defendants do not have a
constitutional right to postconviction counsel, they also recognize that the time for filing
Federal petitions can be equitably tolled when the petitioner has been pursuing his filings
diligently and any delay is attributable to circumstances beyond a defendant’s control.
Here, Robinson argues that he is entitled to equitable tolling for the delay caused by
postconviction counsel hired to file the Petitioner’s postconviction motions.
The Eleventh U.S. Circuit Court of Appeals answer to the above question in the negative
represents a decision that is in conflict with decisions from this Honorable Court and from
other U.S. Circuit Court of Appeals.

1

•v *

jj'

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

X

All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Bernstein, David

Postconviction Counsel

Bondi, Pamela Jo

Attorney General (Former), State of Florida

Bouie, Jimmy

Victim

Cervone, William

State Attorney, 8th Judicial Circuit Court (Florida)

Duffy, Thomas

Asst. Attorney General, State of Florida

Fay, Hon. Peter T.

U.S. Court of Appeals Judge, 11th Circuit

Giant, Hon. David

Trial Judge, 8th Judicial Circuit Court (Florida)

Grant, Hon. Britt C.

U.S. Court of Appeals Judge, 11th Circuit

Inch, Mark S.

Secretary, Florida Department of Corrections

Jones, Julie L.

Secretary (Former), Florida Department of Corrections

Jordan, Hon. Adaberto

U.S. Court of Appeals Judge, 11th Circuit

Kelsey, Hon. Susan L.

Rule 3.850 Postconviction Motion Appeal

Khan, Jr, Hon. Charles

U.S. Magistrate Judge

Luck, Hon.

U.S. Court of Appeals Judge, 11th Circuit

Makar, Hon. Scott D.

Rule 3.850 Postconviction Motion Appeal

Marstiller, Hon.

Judge, Direct Appeal, Rule 9.141(d) Postconv. Petition

Moody, Ashley B.

Attorney General, State of Florida

Moseley, Hon. Mark

Postconviction Judge, 8th Judicial Circuit Court (Florida)

Osterhaus, Hon. Timothy

Rule 9.141(d) Postconviction Petition

Padovano, Hon. Philip J.

Judge, Rule 9.141(d) Postconviction Petition

Robinson, Lionel

Petitioner/Defendant/Appellant

Rowe, Hon. Lori S.

Judge, Direct Appeal

Silver, Marci

Trial Defense Counsel

Singer, Jeanne

Chief Asst. State Attorney, 8th Judicial Circuit Court (Fla)
ii

LIST OF PARTIES (Cont.)

Stover, Kathleen

Appellate Counsel Direct Appeal, Public Defender

Urra, Adam

Asst. State Attorney, 8th Judicial Circuit Court (Florida)

Van Nortwick, Hon.

Judge, Direct Appeal

Walker, Hon. Mark

U.S. District Court Judge

Wetherell, Hon. T. Kent

Rule 3.850 Postconviction Motion Appeal

Whistler, Darla

Asst. State Attorney, 8th Judicial Circuit Court (Florida)

RELATED CASES

Robinson v. State of Florida, No. 01-2010-CF-004836-C, 8th Judicial Circuit Court, in
and for Alachua County, Florida. Judgment entered May 14, 2012.
Robinson v. State of Florida, No. 1D12-3291, First District Court of Appeal, Tallahassee,
Florida. Opinion entered October 17, 2013.
Robinson v. State of Florida, No. 1D14-5403, First District Court of Appeal, Tallahassee,
Florida. Judgment entered December 10, 2014.
Robinson v. State of Florida, No. 01-2010-CF-004836-C, 8th Judicial Circuit Court, in
and for Alachua County, Florida. Judgment entered June 20, 2016.
Robinson v. State of Florida, No. 1D16-3304, First District Court of Appeal, Tallahassee,
Florida. Judgment entered February 22, 2017. Rehearing Denied March 31, 2017.
Mandate issued on April 18, 2017 making the judgment final.
Robinson v. Secretary, Florida Department of Corrections, et al.. No. l:17-cv-198MW/CJK, U.S. District Court for the Northern District of Florida. Judgment entered on
January 2, 2019.
Robinson v. Secretary, Florida Department of Corrections, et al., No. 19-10428-H, U.S.
Court of Appeals for the Eleventh Circuit. COA granted April 20, 2019.
Robinson v. Secretary, Florida Department of Corrections, et al., No. 19-10428-H, U.S.
Court of Appeals for the Eleventh Circuit. Judgment entered April 6, 2020. Rehearing
denied August 19, 2020.

m

ATS

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

ii-iii

LIST OF PARTIES
TABLE OF CONTENTS

IV

INDEX TO APPENDICES

,v
,vi-vii

TABLE OF AUTHORITIES
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2
3-7

STATEMENT OF THE CASE
REASONS FOR GRANTING THE PETITION
CONCLUSION

7-12
12

IV

V.v

INDEX TO APPENDICES

APPENDIX A

April 6, 2020 Eleventh U.S. Circuit Court Order Affirming the U.S. District
Court’s Dismissal Order of Petition for Writ of Federal Habeas Corpus as
Untimely Filed.

APPENDIX B

January 2, 2019 U.S. District Court for the Northern District of Florida,
Gainesville Division Order Dismissing Petition for Writ of Federal Habeas
Corpus as Untimely Filed.

APPENDIX C

November 6, 2018 U.S. District Court for the Northern District of Florida,
Gainesville Division Magistrate’s Report and Recommendation of Dismissal
Order of Petition for Writ of Federal Habeas Corpus as Untimely Filed.

APPENDIX D

August 19, 2020 Eleventh U.S. Circuit Court Order Denying Petition for
Rehearing and Petition for Rehearing en Banc.

APPENDIX 1

September 30, 2014 Retainer Agreement between postconviction Counsel
David Jay Bernstein and the Petitioner.

v

•v/S

TABLE OF AUTHORITIES
PAGE NO.

CASES
Baldayaque v. United States, 338 F.3d 145, 152 (2nd Cir. 2003).................

11

Cadet v. Fla. Dep’tofCorr. 853 F.3d 1216 (11th Cir. 2017).......................

7,11

Gibbs v. LeGrand, 767 F.3d 879 (9th Cir. 2014)..........................................

11

Holland v. Florida, 560 U.S. 631, 130 S.Ct. 2549, 111 L.Ed.2d 130 (2010)

8

Maples v. Thomas, 565 U.S. 266, 132 S.Ct. 912, 181 L.Ed.2d 807 (2012) ..

9

Nora v. Frank, 264 F.3d 310, 320 (3rd Cir. 2001)........................................

11

Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005).........................................

9

Robinson v. Jones, Seer. Fla. Dept, of Corr., 2018 U.S. Dist. LEXIS 218178 (ND (Fla.) 2018)...1
Robinson v. Jones, Seer. Fla. Dept, of Corr., 2019 U.S. Dist. LEXIS 312 (N.D. (Fla.) 2019)

1

Robinson v. State Atty. for Fla., 2020 U.S. App. LEXIS 26363 (11th Cir. 2020)...................

1

Robinson v. State Atty. for Fla., 808 Fed Appx. 894 (11th Cir. 2020)......................................

1

Robinson v. State ofFlorida, Case No. 1D12-3291.................................................................

3

Robinson v. State ofFlorida, Case No. 1D14-5403.................................................................

4

Robinson v. State, 230 So.3d 437 (Fla. 1st DCA 2017)...........................................................

5

Rouse v. Lee, 339 F.3d 238, 250 n.14 (4th Cir. 2003)..............................................................

11

Spitsyn v. Moore, 345 F.3d 796, 798 (9th Cir. 2003)...............................................................

11

United States v. Martin, 408 F.3d 1089, 1093 (8th Cir. 2005).................................................

11

STATUTES
28 U.S.C. §1254(1)

1

28 U.S.C. §2244(d)

2,6

28 U.S.C. §2254(d)

2

vi

/

TABLE OF AUTHORITIES (Cont.)
PAGE NO.

RULES
Fla.R.App.P. Rule 9.141(d) .

4

Fla.R.Crim.P. Rule 3.850....

4

U.S. Supreme Court Rule 13

1

OTHER
Fourteenth Amendment of the U.S. Constitution

vii

2

■

OPINIONS BELOW
X

For cases from Federal courts:
The opinion of the United States Court of Appeals appears at Appendix A and
Appendix D to the petition and is:
[ X ]

reported at Robinson v. State Atty. for Fla., 808 Fed Appx. 894 (11th Cir.
2020); and Robinson v. State Atty. for Fla., 2020 U.S. App. LEXIS 26363
(11th Cir. 2020) (Rehearing).

[

]

has been designated for publication but is not yet reported; or

[

]

is unpublished.

The opinion of the United States District Court appears at Appendix B and
Appendix C to the petition and is:
[ X ]

reported at Robinson v. Jones, Seer. Fla. Dept, of Corr. ’s, 2019 U.S. Dist.
LEXIS 312 (N.D. (Fla.) 2019); and Robinson v. Jones, Seer. Fla. Dept, of
Corr. ’s, 2018 U.S. Dist. LEXIS 218178 (N.D. (Fla.) 2018) (Magis. R&R).

[

]

has been designated for publication but is not yet reported; or

[

]

is unpublished.
JURISDICTION

This Honorable Court has jurisdiction under Title 28 U.S.C. §1254(1) to rule on this
petition and to review the final judgment rendered on August 19, 2020 via the Eleventh U.S.
Circuit Court Order Denying Petition for Rehearing. U.S. Supreme Court Rule 13 holds that a
petition for a writ of certiorari to review a judgment issued by a United States Court of Appeals
in a criminal case is timely when filed with the Clerk within 90 days after entry of the judgment.
A March 19, 2020 U.S. Supreme Court Order extended the filing deadline of a petition for a writ
of certiorari to 150 days (in this case, on or before January 19, 2021).

1

/
/

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Constitutional Issue Involved
The Fourteenth Amendment of the U.S. Constitution provides, in pertinent part, as follows:
“No State shall make or enforce any law which will abridge the privileges or
immunities of citizens of the United States, nor shall any State deprive any person
of life, liberty or property, without due process of the law; nor deny any person
within its jurisdiction the equal protection of the laws.”

Statutory Provisions Involved
Title 28 U.S.C. §2254(d) reads, in pertinent part, as follows:
“An application for writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in the State court proceedings unless the
adjudication of the claim... (1) resulted in a decision that was contrary to, or
involved an unreasonable application of clearly established Federal law, as
determined by the Supreme Court of the United States; or (2) resulted in a
decision that was based on an unreasonable determination of the facts in light of
the evidence presented in the State Court proceeding.”
Title 28 U.S.C. §2244(d) reads, in pertinent part, as follows:
(1) “A 1-year period of limitations shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State
court. The limitation shall run from the latest of —
(A) The date of which the judgment became final by the conclusion of the
direct review or the expiration of time for seeking such review; or
(B) The date on which the impediment to filing an application created by
the State action in violation of the Constitution or laws of the United
States is removed, if the applicant was prevented from filing such
action;
(2) “The time during which a properly filed application for State postconviction or
other collateral review with respect to the pertinent judgment or claim is
pending shall not be counted towards any period of limitation under this
subsection.”

2

/
(

STATEMENT OF THE CASE

The following represents the relevant facts needed for this Court to understand the
Petitioner’s argument that he is entitled to equitable tolling during the period in which
postconviction counsel’s negligent delay in filing Robinson’s State postconviction motions led to
the lower Federal courts’ determination that the Petitioner’s federal habeas corpus petition was
untimely filed.

The parties do not contest the dates below, only the issue as to whether

postconviction counsel’s egregious performance constitutes a reason deserving of equitable
tolling making Robinson’s federal habeas corpus petition timely filed. The Eleventh U.S. Circuit
Court has decided this question in the negative, and has denied the Petitioner equitable tolling
contrary to decisions from this Honorable Court and other U.S. Circuit Court of Appeals.
On May 3, 2012, the Petitioner, Lionel Robinson (“Petitioner” or “Robinson”) was found
guilty after a jury trial of one count of Robbery with a Firearm (Count 1) and Tampering with
Evidence (Count 4). On May 14, 2012, the trial court sentenced Robinson to a total of thirty (30)
years imprisonment in the Florida Department of Corrections. A timely notice of appeal was
filed with the First District Court of Appeal (“1st DCA”). On October 17, 2013, the 1st DC A per
curiam affirmed the lower court’s judgment on direct appeal (Robinson v. State of Florida, Case
No. 1D12-3291). On January 16, 2014, ninety days after the 1st DCA opinion date, Robinson’s
time for filing a timely Federal petition for writ of habeas corpus began to run.
On September 23, 2014, the Petitioner entered into an oral contract to have his
postconviction motions filed by retained counsel, Attorney David Jay Bernstein. The contract
was based on the understanding that Attorney Bernstein immediately file a Motion for
Postconviction Relief in order to begin tolling of Robinson’s remaining Federal Habeas Corpus
3

/

l
Petition due date. Robinson had written Mr. Bernstein a letter that the contract was based on the
understanding that a Fla.R.Crim.P. Rule 3.850 Motion for Postconviction Relief be filed by
postconviction counsel to preserve 90 days of the 365-day filing time limitation (i.e. on or before
October 18, 2014).

The written contract (Retainer Agreement) was signed by Counsel on

September 30, 2014, and was countersigned by Robinson on October 13, 2014 (see Appendix
1). Included in the Agreement is the language, “The rights set forth in this Agreement are
subject to the professional responsibility requirements which regulate Attorneys” (Appx. 1, Page
2). Mr. Bernstein did not meet the filing deadline. Robinson’s family made phone calls to the
law offices of postconviction counsel. Additionally, on both October 24, 2014 and November
18, 2014, the Petitioner wrote Counsel Bernstein a letter requesting an explanation for the delay.
On November 24, 2014, Counsel Bernstein filed his Fla.R.App.P. Rule 9.141(d) Petition
Alleging Ineffective Assistance of Appellate Counsel (see Appx. A, 11th Cir. Opinion, Page 2).
This date reflects a date 37 days after the agreed-upon date of October 18, 2014 for filing of a
postconviction motion for Robinson. The Petitioner wrote Counsel Bernstein several letters
inquiring why a Rule 9.141(d) Petition was filed versus the agreed-upon Rule 3.850 Motion. It
was obvious that Counsel’s Rule 9.141(d) Petition was just a “shell” motion because on
December 10, 2014, the 1st DCA promptly denied the Petition (see Robinson v. State of Florida,
No. 1D14-5403, First District Court of Appeal, Tallahassee, Florida.

Judgment entered

December 10, 2014). Postconviction Counsel never informed Robinson that the Rule 9.141(d)
Petition was denied, constituting further ineffective assistance of counsel.

On February 11,

2015, postconviction Counsel Bernstein filed Robinson’s Fla.R.Crim.P. Rule 3.850 Motion for
Postconviction Relief with the trial court - 116 days after the agreed-upon date of October 18,
2014.
4

•Tv

V

i

Therefore, due solely to postconviction Counsel Bernstein’s gross negligence,
Robinson’s 365-dav time limitation expired. On January 16, 2014, ninety days after the 1st DCA
opinion date, Robinson’s time for filing a timely Federal petition for writ of habeas corpus began
to run. The time for filing his Petition was tolled 312 days later when Counsel Bernstein filed
his November 24, 2014 Rule 9.141(d) Petition. On December 11, 2014, one day after the 1st
DCA denied Counsel’s Rule 9.141(d) Petition, Robinson’s time for filing a timely Federal
petition for writ of habeas corpus began to run again. The time was tolled 63 days later on
February 11, 2015 when Counsel Bernstein filed his February 11, 2015 Rule 3.850 Motion. This
resulted in 375 days expiring against the 365-day time limitation to file Robinson’s Federal
Petition, in explicit violation of Counsel’s Bernstein’s oral and written contracts with the
Petitioner to preserve 90 days time left for Robinson to file the Petition.
On April 18, 2017, the mandate issued on the 1st DCA per curiam affirmance of the
postconviction court’s denial (see Robinson v. State, 230 So.3d 437 (Fla. 1st DCA 2017)
(Table)). Realizing that his Federal time to file his habeas corpus petition would start running
whenever Counsel’s November 24, 2014 Rule 9.141(d) Petition was denied, Robinson
immediately contacted postconviction counsel Bernstein. On both April 5, 2017 and April 21,
2017, Robinson wrote letters to inquire about the status of the Rule 9.141(d) Petition (see Appx.
A, 11th Cir. Opinion, Page 4). On April 28, 2017, postconviction Counsel responded and
informed the Petitioner of all of his filing dates and deadlines (Appx. A, Page 4). On May 15,
2017, Robinson contacted the 1st DCA to inquire about the status of his Rule 9.141(d) Petition
(Appx. A, Page 4). On May 18, 2017, the 1st DCA replied stating the Rule 9.141(d) Petition had
been denied back on December 10, 2014.

5

/
V-v.-

On July 31, 2017, 74 days after the notification from the 1st DCA regarding the denial of
his Rule 9.141(d) Petition, Robinson filed his instant Federal habeas corpus petition.
On November 6, 2018, United States Magistrate Judge Hon. Charles J. Kahn, Jr. filed his
Report and Recommendation arguing that even if Robinson’s claims of postconviction Counsel
Bernstein’s performance was grossly negligent were true, they are not enough to make his
Federal Petition timely under 28 U.S.C. §2244(d) (see Appx. C, Magis. R&R, Page 19). The
Magistrate’s Report and Recommendation somehow concluded Robinson’s Federal Petition was
“untimely by over five years” (Appx. C, Page 9). On January 2, 2019, Chief United States
Magistrate Judge Hon. Mark E. Walker accepted and adopted Hon. Kahn, Jr.’s Report and
Recommendation and dismissed the Petition as untimely filed, denied an evidentiary hearing,
and denied the issuance of a Certificate of Appealability (see Appx. B, Final Order; and see
Appx. C, Pages 19 and 22).
Robinson requested a Certificate of Appealability (“COA”) arguing that the District
Court was in error for not granting the Petitioner equitable tolling during the period that
postconviction counsel breached his contract to file a Rule 3.850 motion on or before October
18, 2014 to preserve 90 days of the 365-day filing time limitation. Robinson filed his instant
Federal Petition 74 days after the notification from the 1st DCA on the denial of his Rule
9.141(d) Petition, and pursued his postconviction inquires in a diligent manner. Robinson argued
that his filing 74 days after learning his last State postconviction motion had been denied was
prior to the 90 days that ethical and effective postconviction counsel would have filed his State
postconviction motion in accordance with a written contract to do so.
In May 2019, the 11th U.S. Circuit Court of Appeals granted Robinson a Certificate of
Appeal on two issues. First, whether the District Court erred in its determination that Robinson
6

/

was not entitled to equitable tolling of the statute of limitations period. Second, whether the
District Court abused its discretion when it denied Robinson an evidentiary hearing.
On April 6, 2020, Hon. Grant, Hon. Luck, and Hon. Fay of the 11th U.S. Circuit Court of
Appeals issued their 11-page written opinion affirming the U.S. District Court decision to
dismiss Robinson’s Federal Habeas Corpus Petition as time-barred (See Appendix A).
On August 19, 2020, the 11th U.S. Circuit Court of Appeals issued their Order Denying
Robinson’s Petition for Rehearing, and his Petition for Rehearing en Banc (see Appendix D).
A March 19, 2020 U.S. Supreme Court Order extended the filing deadline of a petition
for a writ of certiorari to 150 days (in this case, on or before January 19,2021).
The timely Reasons for Granting the Petition follow.

REASONS FOR GRANTING THE PETITION

Does gross negligence on the part of postconviction counsel in the filing of timely postconviction
motions constitute reasons warranting application of equitable tolling for filing a Petition for
Writ of Federal Habeas Corpus?
A. The 11th U.S. Circuit Court of Appeals has decided this important federal question in a
way that conflicts with relevant decisions of this Court.
In their April 6, 2020 Order (see Appx. A), the 11th U.S. Circuit Court affirmed the U.S.
District Court decision to dismiss Robinson’s Federal Habeas Corpus Petition as time-barred.
The 11th U.S. Circuit Court decided that postconviction counsel’s gross negligence in this case
does not qualify as an “extraordinary circumstance” for purposes of equitable tolling (citing to
Cadet v. Fla. Dep’t of Corr. 853 F.3d 1216 (11th Cir. 2017)) (see Appx. A, Order, Pages 7-10).
In Cadet, id., the 11th Circuit Court held that even gross negligence on the part of a prisoner’s
7

.N

postconviction counsel does not warrant equitable tolling “because the attorney is the prisoner’s
agent, and under well-settled principles of agency law, the principal bears the risk of negligent
conduct on the part of his agent. As a result, when the petitioner’s postconviction attorney
misses a filing deadline the petitioner is bound by that oversight.” In Cadet, id., the 11th Circuit
Court held that “abandonment,” when coupled with reasonable diligence by the petitioner, can
justify equitable tolling” but attorney gross negligence, by itself, cannot. In their April 6, 2020
Order (see Appx. A, Pages 8-9), the 11th Circuit Court held that nothing in the record in this case
suggests that postconviction Counsel Bernstein abandoned Robinson because the attorney kept
communicating with Robinson during the filing of his two postconviction motions and beyond.
The 11th Circuit narrowly defined “abandonment” as the severing of all communication and
failure to update his client (see Appx. A, Pages 9-10).

While the 11th Circuit declared

postconviction counsel’s performance arguably negligent and not flawless, the review court held
that the errors cited by Robinson did not meet the extraordinary circumstances of bad faith or
dishonesty needed to warrant equitable tolling.
This Honorable Court has run into the issue Robinson cites in this Petition on two
•

•

«

separate occasions involving the 11

tfi

U.S. Circuit Court of Appeals and has reversed and

remanded both cases back to the lower Federal courts for correction.
In Holland v. Florida, 560 U.S. 631, 130 S.Ct. 2549, 177 L.Ed.2d 130 (2010), you held
that the Eleventh Circuit Court’s holding that an attorney’s professional conduct could not
warrant equitable tolling absent proof of bad faith, dishonesty, divided loyalty or mental
impairment was too rigid in its application. Id. at 2549. You remanded Holland’s case back to
the 11th Circuit Court to determine whether counsel’s failure amounted to egregious behavior
warranting equitable tolling. This Court held that the 11th Circuit Court’s narrow interpretation
8

J

J
of what constitutes egregious attorney conduct warranting equitable tolling resulted in archaic
rigidity whereby courts of equity should avoid mechanical rules and emphasize the need for
flexibility. In Holland, id. Ill L.Ed.2d at 133, you clearly held that “A petitioner is entitled to
equitable tolling if he shows (1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way and prevented timely filing (citing to Pace v.
DiGuglielmo, 544 U.S. 408, 418 (2005)).

As in Holland, id., Robinson pursued his rights

diligently by writing numerous letters to postconviction counsel seeking crucial information
about his motions and the need to preserve his one-year federal time limitation to file his Federal
habeas corpus petition. Once Robinson learned that postconviction counsel had breached his
contract with Robinson and had even allowed the 365-day time limitation to expire, the
Petitioner filed his pro se habeas corpus Petition 74 days later and within the 90 days to file that
postconviction counsel was contractually bound to preserve, but failed. But for postconviction
counsel's record errors and breach of contract, Robinson was prevented from timely filing his
Federal habeas corpus petition despite his personal diligence exercised in those efforts. The
record facts in Robinson’s case in which postconviction counsel Bernstein’s conduct constituted
far more than the garden variety of neglect in that: (1) counsel failed to file the State
postconviction motions he agreed to in the oral contract and under the written contract; (2) he
failed to notice Robinson that Counsel’s Rule 9.141(d) Petition was denied just weeks after its
filing; and (3) he allowed Robinson’s 365-day Federal time limitation to expire in violation of
the entire purpose of why Robinson and his family hired Mr. Bernstein.
In Maples v. Thomas, 565 U.S. 266, 132 S.Ct. 912, 181 L.Ed.2d 807 (2012), you held
that the Eleventh Circuit Court’s definition of the term “abandonment” by counsel was too
narrow. This Honorable Court held that attorney conduct may provide cause to excuse a default
9

\
/
\

in timely filing of a federal habeas petition when the egregious conduct results in the attorney
ceasing to be a petitioner’s agent. In Maples, you reaffirmed your decisions in Holland, ibid.
that: (1) the one-year deadline for filing a federal habeas petition can be tolled for equitable
reasons; and (2) an attorney’s unprofessional conduct can count as an extraordinary circumstance
justifying equitable tolling. Maples, id., 181 L.Ed.2d at 822. As in Holland, the Maples Court
held that when a lawyer has detached himself from any trust relationship with his client, he has
effectively and constructively “abandoned” the petitioner - just as postconviction Bernstein did
with Robinson in this case. Maples, id., 181 L.Ed.2d at 822.
In Robinson’s instant case, this Court can see that the 11th U.S. Circuit Court of Appeals
is again being inflexible in the need to correct the injustice in Robinson’s case that was
inarguably caused by postconviction counsel’s proven breach of conduct, unprofessional
conduct, lack of communication, and constructive “abandonment” of the Petitioner. If this case
is not heard on certiorari review, you will have allowed the 11th U.S. Circuit Court of Appeals to
decide this important federal question in a way that conflicts with the listed relevant decisions of
this Court. Additionally, a man serving a 30-year prison sentence and others like Robinson
under the 11th U.S. Circuit Court’s jurisdiction will end up not having the Federal courts rule on
the merits of their habeas corpus petitions when their delay in filing the motions is attributable to
postconviction counsel’s egregious and grossly negligent performance.
B. The 11th U.S. Circuit Court of Appeals has entered a decision in conflict with other
United States Court of Appeals on the same important matter whereby other courts
have held that gross negligence on the part of postconviction counsel can warrant the
application of equitable tolling time for filing a Petition for Writ of Federal Habeas
Corpus.

10

.V;a
./

In this instant case, the 11th U.S. Circuit Court of Appeals has entered a decision that the
“extraordinary circumstance” of egregious and postconviction counsel misconduct does not
warrant tolling the AEDPA limitations period. Also see Cadet v. Fla. Dep’t of Corr. 853 F.3d
1216 (11th Cir. 2017) (“A petitioner is bound by his attorney’s mistaken inaction even where the
attorney’s mistakes are egregious enough to be characterized as gross negligence.... Negligence,
even gross negligence, alone is not enough to meet the extraordinary circumstance requirement
for equitable tolling in a habeas case”).
This decision is in direct conflict with other U.S. Circuit Court of Appeals on the same
important matter.

See Nara v. Frank, 264 F.3d 310, 320 (3rd Cir. 2001) (Serious attorney

misconduct may warrant equitable tolling); see Spitsyn v. Moore, 345 F.3d 796, 798 (9th Cir.
2003) (tolling State prisoner’s federal habeas statute of limitations due to the “extraordinary
circumstance” of egregious misconduct on the part or petitioner’s attorney). See Baldayaque v.
United States, 338 F.3d 145, 152 (2nd Cir. 2003) (“It is not inconsistent to say that attorney error
normally will not constitute the extraordinary circumstances required to toll the AEDPA
limitations period while acknowledging that, at some point, an attorney’s behavior may be so
outrageous or so incompetent as to render it extraordinary”). See Rouse v. Lee, 339 F.3d 238,
250 n.14 (4th Cir. 2003) (equitable tolling may be appropriate where attorney conduct reaches the
level of “utter abandonment”); and see United States v. Martin, 408 F.3d 1089, 1093 (8th Cir.
2005) (“serious attorney misconduct, as opposed to mere negligence, may warrant equitable
tolling in habeas cases”).
In almost identical circumstances as Robinson’s instant case, in Gibbs v. LeGrand, 767
F.3d 879 (9th Cir. 2014), the 9th U.S. Circuit Court of Appeals granted equitable tolling to a
petitioner when postconviction counsel failed to inform the petitioner that his State
11

*«v
-J

i

postconviction proceeding had ended, even though counsel had pledged to do so. The Petitioner
had written to his counsel for updates, but the petitioner did not learn that the time to file his
Federal habeas petition had begun until the time to file had expired. The 9th Circuit held that this
circumstance represented constructive abandonment comprising the extraordinary circumstance
of serious attorney misconduct warranting tolling of the petitioner’s AEDPA time limitation.

CONCLUSION

As this Honorable Court has done in the past, and due to the serious and direct conflict
with other U.S. Circuit Courts decisions on this same important matter, this Court should grant
the instant writ of certiorari.

Under penalty of perjury, I certify that all of the facts and

statements contained in this document are true and correct and that on the 15th day of January,
2021,1 handed this document and exhibits to a prison official for mailing out to this Court and
the appropriate Respondents for mailing out U.S. mail.

Lionel Robinson, D/C #G15804
Marion Correctional Institution
P.O. Box 158
Lowell, FL 32663-0158

12

